REGIONAL OFFICES
84 H A R L O W S T . 2 N D F L O O R
B A N G O R , M A I N E 04401
T E L : (207 ) 941-3070
F A X : (207) 941 -3075

A ARON M. F REY
ATTORNEY GENERAL

TEL:

(207 ) 626-8800

TTY USERS CALL MAINE RELAY

711

S T AT E OF M AIN E
O F F IC E OF TH E A T TO RN EY G EN ERAL
6 S TA T E H OUS E S TA TIO N
A U GUS TA , M AI N E 04333-0006
August 28, 2020

125 P R E S U M P S C O T S T . , S T E . 26
P O R T L A N D , M A I N E 04103
T E L : (207 ) 822-0260
F A X : (207) 822 -0259
14 A C C E S S H I G H W A Y , S T E . 1
C A R I B O U , M A I N E 04736
T E L : (207 ) 496-3792
F A X : (207) 496 -3291

September 1, 2021
Via First Class Mail and Electronic Filing
Mr. Scott S. Harris
Clerk of the Court
United States Supreme Court
1 First Street, N.E.
Washington, D.C. 20543
Re:

Fowler v. Irish
No.: 20-1392

Dear Mr. Harris:
On behalf of the Petitioners, I am writing to bring to the Court’s attention the First
Circuit’s recent decision in Welch v. City of Biddeford Police Dep't, 2021 WL 3828367 (1st Cir.
Aug. 27, 2021), a copy of which is attached. There, the First Circuit stated that its decision in
Irish v. Fowler, 979 F.3d 65 (1st Cir. 2020), which is the decision the Petitioners ask this Court
to review, “clarified” and “change[d]” the First Circuit’s law regarding the state-created danger
doctrine. Id., at *4. The court further stated that Irish “established the relevance of state and
national policing policies to the state-created danger analysis.” Id., at *5. These
acknowledgments necessarily mean that the First Circuit erred when it held in Irish that the statecreated danger doctrine was sufficiently clearly established to warrant denial of qualified
immunity.
Sincerely,
/s/ Christopher C. Taub
CHRISTOPHER C. TAUB
Chief Deputy Attorney General
Enclosure
cc: Scott J. Lynch, Esq. (via email and First Class Mail)

Welch v. City of Biddeford Police Department, --- F.4th ---- (2021)

2021 WL 3828367
Only the Westlaw citation is currently available.
United States Court of Appeals, First Circuit.
Jocelyne WELCH, as personal representative of
the Estate of Alivia Welch, Plaintiff, Appellant,
Susan Johnson, individually and on behalf
of her minor son B.L. and on behalf of
Derrick Thompson, deceased, Plaintiff,
v.
CITY OF BIDDEFORD POLICE DEPARTMENT;
Roger P. Beaupre, individually and as Chief of
Biddeford Police Department; Edward Dexter,
individually and as an employee of Biddeford Police
Department; Jacob Wolterbeek, individually and as
an employee of Biddeford Police Department; City
of Biddeford; Jane Does, Defendants, Appellees,
Maine Department of Public Safety; John E.
Morris, individually and as Commissioner of
Maine Department of Public Safety, Defendants.
Susan Johnson, individually and on behalf of
her minor son B.L. and on behalf of Derrick
Thompson, deceased, Plaintiff, Appellant,
Jocelyne Welch, as personal representative
of the Estate of Alivia Welch, Plaintiff,
v.
City of Biddeford Police Department; Roger P.
Beaupre, individually and as Chief of Biddeford
Police Department; Edward Dexter, individually and
as an employee of Biddeford Police Department;
Jacob Wolterbeek, individually and as an
employee of Biddeford Police Department; City
of Biddeford; Jane Does, Defendants, Appellees,
Maine Department of Public Safety; John E.
Morris, individually and as Commissioner of
Maine Department of Public Safety, Defendants.
No. 20-1474, No. 20-1481
|
August 27, 2021
APPEALS FROM THE UNITED STATES DISTRICT
COURT FOR THE DISTRICT OF MAINE [Hon. Jon D.
Levy, U.S. District Judge]

Attorneys and Law Firms
Kristine C. Hanly, with whom Sarah A. Churchill and Nichols
& Churchill, P.A. were on brief, for appellant Jocelyne Welch,
as personal representative of the Estate of Alivia Welch.
Kristine C. Hanly, with whom Hanly Law, LLC was on brief,
for appellant Susan Johnson, individually and on behalf of her
minor son B.L. and on behalf of Derrick Thompson, deceased.
Joseph A. Padolsky, with whom Douglas I. Louison and
Louison, Costello, Condon & Pfaff, LLP were on brief, for
appellees.
Before Lynch and Kayatta, Circuit Judges, and Laplante, *
District Judge.
Opinion
LYNCH, Circuit Judge.
*1 On December 29, 2012, Alivia Welch, Susan Johnson,
and Derrick Thompson called the Biddeford, Maine Police
Department and reported that their landlord James Pak, who
lived in a house attached to their apartment, had just made
death threats to them. Police Officers Edward Dexter and
Jacob Wolterbeek responded to the call. On Officer Dexter's
instructions, Officer Wolterbeek left shortly after arriving.
We understand the key focus in the case is on what Officer
Dexter then did. Officer Dexter learned that Pak had told the
tenants he had a gun, and had threatened to shoot them and
to bury Thompson in the snow. When Officer Dexter went to
speak with him, the increasingly angry Pak started to describe
what he was going to do to get his name in the newspaper
the following day but stopped, saying to his wife he did not
want to reveal those plans to the officers. Pak then screamed
at Officer Dexter that he had “nothing to lose” and that “you're
going to see me in the newspaper tomorrow,” and stated that
there would be a “bloody mess.” Officer Dexter chose to leave
at that point. He did so without ascertaining whether Pak
indeed had a gun or was drunkenly out of control. Less than
four minutes after Officer Dexter departed, Pak carried out his
threats, entered the tenants' apartment, shot and killed Welch
and Thompson, and shot and injured Johnson with his gun.
Johnson, wounded in the shooting, and the estates
representing the murdered Welch and Thompson
(collectively, the “plaintiffs”) filed suit, alleging inter alia
that the officers had violated their federal constitutional

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

1

Welch v. City of Biddeford Police Department, --- F.4th ---- (2021)

substantive due process rights under the state-created danger
1

doctrine. The district court granted summary judgment to
the defendants, choosing not to address first the officers'
qualified immunity defense that the law was not clearly
established. Johnson v. City of Biddeford, 454 F. Supp. 3d
75, 91 n.14 (D. Me. 2020). Instead it held that no substantive
due process claim had been presented.
Id. at 91. The
district court did so before either it or the parties had the
benefit of our later decision in

Irish v. Fowler, 979 F.3d

65 (1st Cir. 2020) (“ Irish II”). We now affirm in part and
vacate and remand in part.

I. Background
On reviewing the grant of defendants' motion for summary
judgment, we recite the facts in the light most favorable to the
plaintiffs.
Irish II, 979 F.3d at 68. In doing so, we do not
suggest that these facts are sufficient to decide the substantive
due process issue, that all of them are material, or that all
material facts have been presented.
In 2012 Susan Johnson and her son Derrick Thompson were
renting an apartment in Biddeford, Maine, from Armit and
James Pak. The apartment was attached to the Paks' home and
shared a driveway with the home. Alivia Welch, Thompson's
girlfriend, was also staying in the apartment.
On the evening of December 29, 2012, James Pak got into
an argument with Thompson outside the apartment. Pak
screamed at and made obscene gestures at the plaintiffs. He
also threatened to hit Thompson, pointed his fingers at the
plaintiffs in the shape of a gun and said “bang,” and threatened
to bury Thompson in the snow. Thompson called the police
and reported that his landlord was “freaking out on him,”
making death threats towards him, and pointing his finger
at him like it was a gun. Johnson recorded portions of this
altercation on her cellphone.
*2 Officers Dexter and Wolterbeek were dispatched to the
apartment. Officer Dexter arrived at the scene first and spoke
to the plaintiffs. 2 They showed him the videos recorded that
evening of Pak screaming at them. The plaintiffs also told
Officer Dexter exactly the threats described before, including
the threat to shoot the plaintiffs and the threat to bury
Thompson. The plaintiffs warned Officer Dexter that once

Pak had tried to follow Thompson into the apartment after a
confrontation. They said that they often had confrontations
with Pak, but that this time was different because Armit Pak,
James Pak's wife, had not come over, as she usually did, to
apologize to them after Pak “freak[ed] out.” Johnson told
Officer Dexter that her six-year-old son was in a different
room, as they were trying to keep him away from the situation
with Pak. Officer Wolterbeek arrived while Officer Dexter
was speaking with the plaintiffs and briefly spoke with Pak
in the driveway. He then went into the apartment and listened
to Officer Dexter's ongoing conversation with the plaintiffs.
Officer Dexter asked the plaintiffs what the biggest problem
was between them and the Paks. They responded that the
current conflict was about how many cars could be parked
in the driveway under their lease agreement. After stepping
outside the apartment, Officer Dexter told Officer Wolterbeek
that he could leave.
Officer Dexter then went next door to speak to both of the
Paks. The doors to the Paks' home and the plaintiffs' apartment
are directly adjacent to each other, almost side-by-side. Armit
Pak explained that James Pak was angry with the plaintiffs
about the parking as well as other issues and that they were in
the process of evicting the plaintiffs. In describing to Officer
Dexter his conflicts with Thompson, Pak said that he told
Thompson he had a gun, would shoot him, and said “bang”
to Thompson.
Officer Dexter repeatedly explained that he could not do
anything about the car parked in the driveway or the eviction
as those were “civil issue[s].” He also repeatedly told Pak
that these civil issues would have to be handled through the
courts, that the court process would be difficult, and that the
downside of being a landlord in Maine is that “tenants in this
state have so many rights,” which is frustrating for landlords.
Officer Dexter said several times that he “understood” or “felt
sorry” for the Paks.
Officer Dexter also told James Pak that he could not
physically threaten or threaten to shoot his tenants, that
such threats were a criminal offense, and that he could be
issued a criminal summons if he threatened his tenants again.
Pak expressed to Dexter frustration about this information.
He asked why Thompson could threaten him but he could
not threaten Thompson. Officer Dexter responded by saying
that Thompson was just being rude. He then stated that
he understood how Thompson's actions upset Pak and that
Thompson was being disrespectful to Pak. Later in the
conversation, Pak accused Thompson of calling him names

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

2

Welch v. City of Biddeford Police Department, --- F.4th ---- (2021)

and said, “now I just don't, I don't have any rights?” In
response, Officer Dexter again told Pak that he understood
his frustration and apologized to Armit Pak for not having
more “responses for [her].” During the conversation, Pak
repeatedly expressed frustration to Officer Dexter that he felt
like he had no rights, but that his tenants had rights.
The recordings show Pak was angry throughout the
conversation and in the last three minutes raised his voice
increasingly often and was screaming or yelling. Pak twice
told Officer Dexter that he had “nothing to lose,” yelled that
he would be a “big name tomorrow,” and said that “you're
going to see [him] in the newspaper.” Pak started describing
what he was going to do to get a big name and to be in the
newspapers “tomorrow,” but stopped. Officer Dexter heard
him say next to Armit Pak, “I'm not going to tell you in
front of [Officer Dexter].” Pak screamed at Officer Dexter
that the “least” he could do was tell the plaintiffs not to
park a third car in the driveway. At one of Pak's angriest
moments, seconds after Pak yelled that he was going to be
“a big name tomorrow” and screamed that Officer Dexter did
not understand Pak's situation, Officer Dexter said, “okay, I'm
going to go now.”
*3 Officer Dexter then told Pak to keep his distance, and
Pak replied that Officer Dexter “d[id]n't have to worry about
that.” The last thing Pak said as Officer Dexter left the house
was that “it's going to be a bloody mess.”
Knowing that Pak told Thompson he had a gun and would
shoot him, Officer Dexter nonetheless chose not to ask Pak
whether he had any firearms or ammunition, nor did he search
Pak for weapons. Officer Dexter also chose not to ask Pak
whether he had consumed any alcohol or conduct a field
sobriety test. The officers who arrested Pak had “smelled the
odor of intoxicants” on him. 3 Officer Dexter said he was
never within six feet of Pak and did not smell the alcohol.
Officer Dexter then went back to speak to the plaintiffs and
told them that Pak was very upset and to avoid Pak for the rest
of the evening. Officer Dexter then chose to leave. He did not
mention to the plaintiffs the additional threats Pak had made.
Officer Dexter cleared the scene at 6:51 PM.
Immediately on Officer Dexter's leaving, Pak grabbed his
Smith & Wesson .357 revolver and entered the plaintiffs'
apartment. He shot twice and injured Johnson, then shot once
and killed Thompson and shot twice and killed Welch. At 6:55
PM, Johnson called 911 to report what had just happened.

II. Procedural History
The plaintiffs filed complaints against the City of Biddeford,
the Biddeford Police Department, the Maine Department of
Public Safety, 4 and Officers Dexter and Wolterbeek alleging,
inter alia, 5 that the officers had violated their substantive
due process rights under the state-created danger doctrine.
The plaintiffs also brought
Monell claims against the
Biddeford Police Chief Roger Beaupre and the City of
Biddeford and claims under the Maine Civil Rights Act
against the officers. See
Monell v. Dep't of Soc. Servs.,
436 U.S. 658, 98 S.Ct. 2018, 56 L.Ed.2d 611 (1978); Me. Rev.
Stat. Ann., tit. 5, § 4682(1-A). After discovery, the defendants
moved for summary judgment.
The district court granted the defendants' motion for summary
judgment on all claims.
Johnson, 454 F. Supp. 3d at
95. Relying only on its conclusion that the officers had
taken no affirmative act greatly increasing the danger to the
plaintiffs, it held that there had been no substantive due
process violation.
Id. at 91. It did not address whether the
law was “clearly established” for the purposes of the second
part of the qualified immunity inquiry. 6

Id. at 91 n.14.

As to the
Monell and Maine Civil Rights Act claims,
the district court concluded that because the officers had
not violated the plaintiffs' constitutional rights, those claims
failed.

Johnson, 454 F. Supp. 3d at 92.

III. Analysis
*4 The Fourteenth Amendment's Due Process clause states
that “[n]o State shall ... deprive any person of life, liberty,
or property, without due process of law.” U.S. Const. amend.
XIV, § 1. In general, the state's failure to protect an individual
from private harm does not give rise to a due process claim.
DeShaney v. Winnebago Cnty. Dep't of Soc. Servs., 489
U.S. 189, 197, 109 S.Ct. 998, 103 L.Ed.2d 249 (1989). As the
law has developed since 1989, this circuit joined other circuits
in
Irish II in recognizing that a plaintiff may make out a
due process claim under the state-created danger doctrine by
showing

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

3

Welch v. City of Biddeford Police Department, --- F.4th ---- (2021)

(1) that a state actor or state actors affirmatively acted to
create or enhance a danger to the plaintiff;
(2) that the act or acts created or enhanced a danger specific
to the plaintiff and distinct from the danger to the general
public;
(3) that the act or acts caused the plaintiff's harm; and
(4) that the state actor's conduct, when viewed in total,
shocks the conscience.
979 F.3d 65, 75 (1st Cir. 2020).
The plaintiffs present several arguments that various acts
taken by Officers Wolterbeek and Dexter were affirmative
acts that enhanced the danger to them. 7 We affirm the district
court's decision that Officer Wolterbeek took no affirmative
act that enhanced the danger to the plaintiffs. We see no
evidence in the record that any of Officer Wolterbeek's actions
increased any danger to the plaintiffs. The plaintiffs also
do not explain how any of Officer Wolterbeek's actions, on
their own, could give rise to a state-created danger claim.
Officers are not liable under § 1983 for the actions of other
officers. See

Leavitt v. Corr. Med. Servs., Inc., 645 F.3d

484, 502 (1st Cir. 2011); see also
Ashcroft v. Iqbal, 556
U.S. 662, 676, 129 S.Ct. 1937, 173 L.Ed.2d 868 (2009)
(stating that in § 1983 cases, the plaintiff must show that
“each Government-official defendant, through the official's
own individual actions, has violated the Constitution”).
As to Officer Dexter, we are disinclined given the changes
in the law to ourselves decide the merits of the substantive
due process claim. As previously stated, the parties did not
have the benefit of
Irish II in conducting their discovery
and presenting evidence in this case. Nor did the district court
have the benefit of that opinion, which clarified this circuit's
law and now must be applied.
Irish II is pertinent in at
least three important senses and all three lead us to conclude
that a remand is appropriate here. See
Gastronomical
Workers Union Loc. 610 v. Dorado Beach Hotel, 617 F.3d
54, 66 (1st Cir. 2010) (remanding when intervening precedent
meant that district court “did not engage in the requisite
analysis”); United States v. Taylor, 532 F.3d 68, 70 (1st Cir.
2008) (remanding for reconsideration where a decision “on
the present record would not fully actualize” the intervening
developments in the law).

First,
Irish II established that the first prong of the statecreated danger claim is whether a state actor's affirmative act
“created or enhanced” a danger to the plaintiffs.
Irish II,
979 F.3d at 75. Without the benefit of our decision, the district
court held, contrary to
Irish II, that under the state-created
danger doctrine an affirmative act must “greatly” enhance
the danger to the plaintiffs, rather than simply “enhance” the
danger. Compare

Johnson, 454 F. Supp. 3d at 85, with

Irish II, 979 F.3d at 75.
Second,
Irish II recognized that, “[w]here officials have
the opportunity to make unhurried judgments, deliberate
indifference may shock the conscience, particularly where
the state official performs multiple acts of indifference to a
rising risk of acute and severe danger.” 979 F.3d at 75. This
holding may bear on both the parties' argument and the district
court's analysis.
*5 Finally,
Irish II established the relevance of state and
national policing policies to the state-created danger analysis.
It explained that “[a] defendant's adherence to proper police
procedure bears on all prongs of the qualified immunity
analysis,” including whether an officer's conduct shocked the
conscience and whether a reasonable officer “would have
believed that his conduct violated the Constitution.”

Id.

at 77 (quoting
Stamps v. Town of Framingham, 813 F.3d
27, 32 n.4 (1st Cir. 2016)). The parties have presented little
evidence as to police standards and training in handling
disputes between neighbors or landlords and tenants. 8 Such
evidence may well be important to the disposition of the case.
For example, officers are sometimes required to do more
than Officer Dexter did here when credible death threats are
made in a domestic violence context. See
Irish II, 979
F.3d at 72 (explaining that Maine State Police are required to
“use all reasonable means to prevent further abuse” including
“[r]emaining on the scene [of a domestic violence incident
for] as long as the officer reasonably believes there is a danger
to the physical safety of that person without the presence of
a law enforcement officer.” (quoting Me. Stat. tit. 19-A, §
4012(6)) (alterations in original)). There may be an analogous
duty in cases such as this one.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

4

Welch v. City of Biddeford Police Department, --- F.4th ---- (2021)

We make no determination as to whether the plaintiffs may
prevail on any of the prongs of the
Irish II state-created
danger test. Indeed, it would be premature to reach the
“shocks the conscience” prong, as we here address only
the district court's error in evaluating the danger-enhancing
prong. Nor do we suggest that an officer leaving the scene on
different facts would amount to or contribute to an affirmative
act that created or enhanced the danger to others. Our narrow
decision to remand, however, is consonant with the rulings of
other federal courts in state-created danger cases. See, e.g.,
Martinez v. City of Clovis, 943 F.3d 1260, 1273 (9th Cir.
2019) (holding that officer's conduct of praising domestic
violence abuser as good people in the abuser's presence
after officer refused to arrest abuser following plaintiff's
domestic violence complaint supported plaintiff's § 1983
substantive due process claim under the state-created danger
theory; officer's alleged positive remarks could reasonably
have emboldened abuser to continue abusing plaintiff); id. at
1272 (holding that reasonable jury could find officer violated
plaintiff's substantive due process rights under state-created
danger theory where officer “provoked” and “emboldened”
domestic abuser by disclosing to abuser plaintiff's “testimony
relating to [ ] prior abuse and also stat[ing] that [plaintiff] was
not ‘the right girl’ for him”); Mackie v. Cnty. of Santa Cruz,
444 F. Supp. 3d 1094, 1105-07 (N.D. Cal. 2020) (holding that
plaintiffs had adequately pled a state-created danger claim
where officer's interaction with plaintiffs' neighbor regarding
plaintiffs' previous complaints about the neighbor left the
neighbor “in an agitated state” and neighbor subsequently
attacked plaintiffs); Lipman v. Budish, 974 F.3d 726, 746
(6th Cir. 2020) (interviewing abused child in front of
possible abusers was affirmative act that could give rise
to state-created danger claim); McClammy v. Halloran, No.
CV-18-68-GF-BMM, 2019 WL 4674462, at *3 (D. Mont.
2019) (holding that there was a genuine issue of material
fact as to plaintiff's state-created danger claim where plaintiff
argued officers had “increased her risk of harm by ‘stoking
[her abuser's] anger’ during their investigation”).
In these circumstances, it is fairer to all concerned to remand
to the district court in light of this opinion. This decision
makes no new law and does not expand the state-created
danger doctrine; it is simply a remand for consideration of the
factors identified above. We make no factual findings, and our
holding is based on legal error under
Irish II. The district
court may in its discretion permit additional discovery in light
of the clarification provided by
Irish II. The district court
should address on remand whether Officer Dexter is entitled

to qualified immunity and may choose to address the second
step of the qualified immunity inquiry before addressing
whether Officer Dexter violated the plaintiffs' substantive due
process rights under the state-created danger doctrine. See
Maldonado v. Fontanes, 568 F.3d 263, 269-70 (1st Cir.
2009).
*6 We also remand the
Monell and Maine Civil Rights
Act claims against Officer Dexter, which were resolved on the
basis that such claims failed because there was no violation
of the plaintiffs' substantive due process rights.

IV. Conclusion
We vacate the grant of summary judgment as to the § 1983 and
Maine Civil Rights Act claims against Officer Dexter and the
Monell claims against Police Chief Beaupre and the City
of Biddeford and remand for further consideration in light of
this opinion and

Irish II.

We affirm the grant of summary judgment as to the § 1983
claims against Officer Wolterbeek and all other claims against
the defendants. No costs awarded. See Fed. R. App. P. 39(a).

KAYATTA, Circuit Judge, dissenting.
A layperson reading the facts of this case as portrayed in
the majority opinion could easily conclude that as a matter
of good police practice, Officer Dexter should have arrested
Pak for criminal threatening (assuming that he could discount
Johnson's statement that he felt harassed, but not really
threatened). See, e.g., Me. Stat. tit. 17-A, § 209 (2021). And if
the people of Maine wish to render law enforcement officers
personally liable for failing to make arrests in situations
like this one, they may so provide as a matter of state law.
DeShaney v. Winnebago Cnty. Dep't of Soc. Servs., 489
U.S. 189, 202, 109 S.Ct. 998, 103 L.Ed.2d 249 (1989) (“A
State may, through its courts and legislatures, impose such
affirmative duties of care and protection upon its agents as it
wishes.”).
As the Supreme Court has made clear, however, an officer's
failure to arrest does not violate the Due Process Clause of
the Fourteenth Amendment to the United States Constitution.
Id. at 196–97, 109 S.Ct. 998 (“If the Due Process Clause

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

5

Welch v. City of Biddeford Police Department, --- F.4th ---- (2021)

does not require the State to provide its citizens with
particular protective services, it follows that the State cannot
be held liable under the Clause for injuries that could have
been averted had it chosen to provide them. As a general
matter ... we conclude that a State's failure to protect an
individual against private violence simply does not constitute
a violation of the Due Process Clause.”). The Due Process
Clause provides impediments to arrest; it does not encourage,
much less require, arrests. Given the weight of precedent
on this point,
DeShaney's succinct summation must guide
our holding in this case: “Because ... the State had no
constitutional duty to protect [the victim] against [another's]
violence, its failure to do so -- though calamitous in hindsight
-- simply does not constitute a violation of the Due Process
Clause.”

Id. at 202, 109 S.Ct. 998.

By vacating the judgment, the majority suggests that perhaps
a jury could hold Officer Dexter liable -- not for failing to
arrest, but for affirmatively doing something that increased
the likelihood that Pak would kill. But this “state-created
danger” exception only works if what the officer did, other
than failing to arrest Pak, is “so egregious, so outrageous, that
it may fairly be said to shock the contemporary conscience.”
County of Sacramento v. Lewis, 523 U.S. 833, 847 n.8,
118 S.Ct. 1708, 140 L.Ed.2d 1043 (1998). In
Lewis, the
officer deliberately, recklessly, and with “indifference to life”
initiated a high-speed chase -- of up to 100 miles per hour
-- in pursuit of two teenagers on a motorcycle who had
committed only a speeding violation.
Id. at 836, 837, 854,
118 S.Ct. 1708. The officer followed so closely that it was
impossible for him to stop safely, should the motorcycle he
was chasing come to a halt. When the chased motorcycle
tipped over, the officer hit and killed its sixteen-year-old
passenger, all in assumed violation of sound law enforcement
practice.
Id. at 837, 854, 118 S.Ct. 1708. The Supreme
Court nevertheless found that the officer's conduct “[did] not
shock the conscience.”

Id. at 855, 118 S.Ct. 1708.

*7 The Court in
Lewis “left open the possibility that
unauthorized police behavior in other contexts might ‘shock
the conscience,’ ”
Chavez v. Martinez, 538 U.S.
760, 774, 123 S.Ct. 1994, 155 L.Ed.2d 984 (2003) (citing
Lewis, 523 U.S. at 850, 118 S.Ct. 1708). It gave two
examples of such other contexts: First, the “shock the
conscience” standard might be “satisfied where the conduct

was ‘intended to injure in some way unjustifiable by any
government interest[.]’ ” Lewis, 523 U.S. at 849—50, 118
S.Ct. 1708. Second, “deliberate indifference” might in theory
suffice to shock the conscience, when such indifference is
“patently egregious.”
Id. at 850, 118 S.Ct. 1708. And
the Court has never suggested that failing to arrest can be
rendered actionable simply by labeling such failure deliberate
indifference. To conclude otherwise would be to overrule
DeShaney.
So what did Officer Dexter affirmatively do that was so
egregious and outrageous as compared to the conduct found
not to shock the conscience in
Lewis? The answer is
“nothing.” There is no dispute as to the content of the
conversations he had with either the victims or with the Paks,
as those conversations were recorded. Officer Dexter listened
patiently to the tenants and gave them common-sense advice
about staying away from Pak for the evening if they could.
And he spoke with Pak. Suffice it to say, he did not urge
Pak to shoot anybody. To the contrary, Dexter repeatedly and
firmly told Pak that violence and threats of violence were
crimes and would lead to his arrest. Pak replied that he was
“not going to shoot [Johnson].” The conversation ended with
Officer Dexter repeating twice an admonishment for Pak to
“keep [his] distance from [the tenants],” to which Pak replied
“[n]o, no you don't have to worry about that.”
The majority points to the fact that Officer Dexter expressed
some sympathy for Pak's complaints about his tenants. To be
precise, what he did was play good-cop, bad-cop with Pak,
expressing some sympathy regarding Pak's frustration that the
tenants were in violation of their lease and that the eviction
process was difficult, while admonishing Pak for his threats.
The majority also observes that Officer Dexter did not ask
whether Pak had a gun. This is clear in the record. What
is not clear is why the majority thinks it matters. Following
my colleagues' reasoning, had the officer inquired about the
presence of a firearm, he could now be said to have caused
the tenants' deaths by reminding Pak that he did indeed have
a gun. Of course, asking about the gun might have led the
officer to make an arrest. But as explained above, the failure
to arrest does not give rise to liability under federal law.
Similarly, the majority comments that Officer Dexter did not
ask Pak whether he had consumed any alcohol and did not
conduct a field sobriety test. Although my colleagues make
note of Officer Dexter's testimony that he was never within six

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

6

Welch v. City of Biddeford Police Department, --- F.4th ---- (2021)

feet of Pak and did not smell any alcohol, they fail to elucidate
what affirmative duty Dexter was under to investigate Pak's
alcohol consumption, especially when the “legal limit” for
blood alcohol levels the majority cites applies to individuals
operating motor vehicles in the state of Maine, rather than to
individuals in their homes.
Officer Dexter's effort clearly did not work in this instance.
Even if we assume that his intervention angered Pak further,
however, I can still say with confidence that no reasonable
person could possibly find that such actions as Officer Dexter
undertook could shock anyone's conscience as that test is
defined in

Lewis. Lewis, 523 U.S. at 836, 849—51,

incorrect” an assertion that the law of the state-created danger
doctrine was not “clearly established”).
Second, the majority notes that in describing the exception for
state-created dangers, the district court asked whether Officer
Dexter's actions “greatly increas[ed] the danger” rather than
whether they “enhanc[ed] the danger.” But this difference in
terminology could only matter if a jury could reasonably find
that Officer Dexter engaged in affirmative conduct that both
enhanced the danger and was shocking to the conscience.
And as I have explained, even the majority avoids saying
that Dexter's conduct could be found to have shocked the
conscience.

118 S.Ct. 1708;
id. at 855, 118 S.Ct. 1708 (“Regardless
whether [the officer's] behavior offended the reasonableness
held up by tort law or the balance struck in law enforcement's
own codes of sound practice, it does not shock the conscience,
and petitioners are not called upon to answer for it under
§ 1983.”). Indeed, if what Officer Dexter said to Pak could
satisfy the “shock the conscience” standard, then it is fair
to ask my colleagues a question that they cannot answer:
Short of arresting Pak, what could the officer had said to him
or done that could not now in hindsight equally be said to
shock our consciences? Suppose, for example, that Officer
Dexter had instead told Pak that he had no sympathy for Pak's
complaints as a landlord. The officer might now be equally
second-guessed by my colleagues for having worsened things
by further provoking Pak.

If, on remand, the district court reads the majority opinion
carefully, it will note that the opinion does not actually
preclude the district court from rewording its summary of the
applicable enhancement standard and re-entering its order of
dismissal. Should the district court so proceed, perhaps no
great harm will be done, even if nothing is gained beyond
a display of understandable sympathy for the victims. But
there is a chance that courts -- including the district court -will read the majority opinion otherwise. They might sensibly
think that no appellate court would remand this case unless,
on the present record, it thought that a judgment for plaintiffs
was somehow possible. And litigants or potential litigants in
other cases in which officers fail to arrest someone will cite
this case as watering down the “shock the conscience” test to
a form of re-labeled negligence.

*8 Aside from detailing certain facts, such as Officer
Dexter's failure to arrest, that could potentially support a
negligence suit but not a federal claim, the majority never
really says what specific facts might be found on remand and
how those facts could change the result of the district court's
opinion. To the contrary, my colleagues seem to hold their
own opinion with pinched noses and at arm's length. So why
remand a case that we already know can go nowhere under
current legal standards, creating false hope for the plaintiffs?
The majority cites two justifications.

Such an outcome is contrary to existing law. As the Supreme

First, the majority alleges that
65 (1st Cir. 2020) (“

Irish v. Fowler, 979 F.3d

Irish II”) supposedly “clarified this

circuit's law.” But the whole point of
Irish II was that
the law regarding the state-created danger doctrine was
already so “clearly established” that qualified immunity was
inapplicable.

979 F.3d at 77—80 (describing as “simply

Court said in
DeShaney: “The most that can be said of
the state functionaries in this case is that they stood by and
did nothing when suspicious circumstances dictated a more
active role for them. In defense of them it must also be said
that had they moved too soon to [act], they likely would have
been met with charges of improper [behavior], charges based
on the same Due Process Clause that forms the basis for
the present charge of failure to provide adequate protection.”
DeShaney, 489 U.S. at 203, 109 S.Ct. 998. The same point
applies here.
I must therefore respectfully dissent. Officer Dexter took
no affirmative act that could conceivably be said to shock
the conscience as that standard is defined in
Lewis. And
whether he should be held personally liable for not doing
more is not a concern of the Due Process Clause.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

7

Welch v. City of Biddeford Police Department, --- F.4th ---- (2021)

All Citations
--- F.4th ----, 2021 WL 3828367

Footnotes
*
1
2
3
4
5

Of the District of New Hampshire, sitting by designation.
Johnson sued individually and on behalf of her six-year-old son who was in the apartment at the time of
the shooting.
Officer Dexter was wearing an audio recording device which captured his interactions with the plaintiffs and
the Paks.
When Pak was arrested, he had a blood alcohol level of .15, roughly twice the legal limit. After Pak's arrest,
Armit Pak reported that Pak had been drinking beer “all day.”
The parties stipulated to dismissing with prejudice all claims against the Department of Public Safety and its
Commissioner.
Johnson, 454 F. Supp. 3d at 81 n.2.
The complaints also alleged negligence, negligent infliction of emotional distress, intentional infliction of
emotional distress, assault and battery, wrongful death, civil conspiracy, breach of quiet enjoyment under
Maine law, and a claim under

6

42 U.S.C. § 1985.

The district court granted summary judgment to the defendants on all of these claims.
Johnson, 454 F.
Supp. 3d at 92-95. The plaintiffs make no argument in their opening briefs as to any of these claims and any
such argument is waived. See, e.g., Págan-Lisboa v. Soc. Sec. Admin. 996 F.3d 1, 7 (1st Cir. 2021).
Police officers “are entitled to qualified immunity under § 1983 unless (1) they violated a federal statutory or
constitutional right, and (2) the unlawfulness of their conduct was ‘clearly established at the time.’ ”

7
8

Dist.

of Columbia v. Wesby, ––– U.S. ––––, 138 S. Ct. 577, 589, 199 L.Ed.2d 453 (2018) (quoting
Reichle v.
Howards, 566 U.S. 658, 664, 132 S.Ct. 2088, 182 L.Ed.2d 985 (2012)).
We do not address Welch's arguments that the decisions not to charge or arrest Pak were affirmative acts.
The record states that Officer Dexter was trained on how to deal with landlord/tenant disputes, but does not
explain the content of that training.
There is also evidence in the record as to several Biddeford Standard Operating Procedures, including the
Biddeford Police Department policy which requires officers “to take action to assist persons who are exhibiting
symptoms of deviant behavior and appear to represent an imminent danger to themselves or to someone
else.”

End of Document

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

8

